No. ______
In the

Supreme Court of the United States
__________________

RENEE BAKER, WARDEN, et al.,
Petitioners,
v.
JEFF N. ROSE,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
CHARLES FINLAYSON
Senior Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
At his trial for molesting A.C. and C.C., defendant
Jeff Rose sought to present evidence that a different
jury acquitted him on charges relating to two other
young girls, D.A. and Z.V. Rose also sought to attack
A.C.’s credibility by presenting testimony from three
more girls—C.R., K.T., and R.S.—who he claimed
would say that he never acted inappropriately with
them as A.C. alleged. The State responded that it
would bolster A.C.’s credibility by presenting evidence
that she saw Rose molest other girls, including Rose’s
daughter, J.R. And if J.R. denied the accusation, the
State said it would impeach her with her own prior
inconsistent statements.
Applying a rule of evidence that exists in virtually
every jurisdiction in the nation, the trial court rejected
both parties’ attempts to turn Rose’s trial into a circus
by introducing evidence of uncharged acts and prior
acquittals. The Nevada Supreme Court affirmed. The
federal district court denied habeas relief. On appeal,
however, rather than applying AEDPA, the Ninth
Circuit reversed in a decision that sounds of ordinary
error correction, suggesting that the trial court could
have issued a narrower ruling and merely concluding
that the alleged error was not harmless.
The question presented in this matter is:
Whether the Ninth Circuit’s decision violates
AEDPA, given that this Court reversed the Ninth
Circuit under materially indistinguishable
circumstances in Nevada v. Jackson, 569 U.S. 505, 509
(2013).

ii
PARTIES TO THE PROCEEDING
Petitioner Renee Baker is the warden of the Lovelock
Correctional Center in Nevada. Petitioner Aaron Ford,
Attorney General of the State of Nevada, is a party to
the proceeding not listed in the caption. He joins this
petition in full. Respondent Jeff N. Rose is an inmate at
Ely State Prison.
RELATED PROCEEDINGS
State of Nevada vs. Jeff N. Rose, No. C188264
Eighth Judicial District Court, Clark County
Judgment of conviction - November 17, 2004 Order
denying petition - May 13, 2013
Rose vs. State, Docket No. 44398
Nevada Supreme Court Opinion
judgment- July 27, 2007

affirming

Rose vs. State, Docket No. 53845
Nevada Supreme Court Order reversing and
remanding - March 10, 2010
Rose vs. State, Docket No. 59141
Nevada Supreme Court Order of affirmance - May
13, 2013
Jeff N. Rose v. Robert Legrand, 3:13-cv-00267-MMDWGC
United States District Court, District of Nevada
Order denying petition - December 20, 2016
Jeff N. Rose v. Baker, et al., No. 17-15009
Ninth Circuit Court of Appeals Order affirming,
reversing, and remanding - September 24, 2019

iii
Jeff N. Rose v. Nevada, No. 07-11056
United States Supreme Court Order denying cert
petition - October 6, 2008

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONAL AND STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . 9
I. The Ninth Circuit’s Conclusion that the Trial
Court Violated Rose’s Right to Present a Defense
Directly Conflicts with this Court’s Decision in
Jackson . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. In Jackson, this Court Acknowledged That
its Precedents Grant the States Broad
Discretion in Establishing Evidentiary Rules
to Avoid Confusing and Misleading Juries. . . 9
B. This Case Falls in Line with Jackson,
Requiring a Denial of Relief under AEDPA . 11
C. The Ninth Circuit’s Attempt to Distinguish
Jackson is Unavailing . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

v
APPENDIX
Appendix A Memorandum Opinion in the United
States Court of Appeals for the Ninth
Circuit
(September 24, 2019) . . . . . . . . . . App. 1
Appendix B Order
and
Judgment
in the
United States District Court, District
of Nevada
(December 20, 2016) . . . . . . . . . . . App. 8
Appendix C Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(November 26, 2019) . . . . . . . . . . App. 54

vi
TABLE OF AUTHORITIES
CASES
Crane v. Kentucky,
476 U.S. 683 (1986) . . . . . . . . . . . . . . . . . . . . . . . 10
Delware v. Van Arsdall,
475 U.S. 673 (1986) . . . . . . . . . . . . . . . . . . . . . . . 16
Harrington v. Richter,
562 U.S. 86 (2011) . . . . . . . . . . . . . . . . . . . . . 13, 14
Holmes v. South Carolina,
547 U.S. 319 (2006) . . . . . . . . . . . . . . . . . . . . . . . 10
Miller v. State,
779 P.2d 87 (Nev. 1989) . . . . . . . . . . . . . . . . . . . . . 6
Nevada v. Jackson,
569 U.S. 505 (2013) . . . . . . . . . . . . . . . . . . . passim
Olden v. Kentucky,
488 U.S. 227 (1988) . . . . . . . . . . . . . . . . . . . . . . . 16
Renico v. Lett,
559 U.S. 766 (2010) . . . . . . . . . . . . . . . . . . . . . . . 14
Yarborough v. Alvarado,
541 U.S. 652 (2004) . . . . . . . . . . . . . . . . . . . . . . . 13

vii
CONSTITUTIONAL PROVISIONS AND
STATUTES
U.S. Const. amend. XIV, § 1. . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
Nev. Rev. Stat. 48.035 . . . . . . . . . . . . . . . . . . . . . . 1, 7
Nev. Rev. Stat. 48.035(3) . . . . . . . . . . . . . . . . . . . . . . 7
Nev. Rev. Stat. 50.085 . . . . . . . . . . . . . . . . . . . . . 9, 10
RULES
Fed. R. of Evid. 403 . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR WRIT OF CERTIORARI
Less than ten years ago, in a case involving nearly
identical principles of Nevada evidentiary law, this
Court reiterated that a defendant’s right to present a
defense does not override the “broad latitude” that
states possess in creating rules governing the
admission and exclusion of evidence in criminal trials.
Nevada v. Jackson, 569 U.S. 505, 509 (2013). This
Court explained that it has only found violations of the
right to present a defense in rare circumstances, such
as: (1) where the rule “did not rationally serve any
discernable purpose,” (2) where the rule was arbitrary,
(3) where the “State did not even attempt to explain the
reason for its rule,” or (4) where the “rule could not be
rationally defended.” Id. (citing cases). And this Court
pointedly reminded the Ninth Circuit that it could only
grant relief on a federal habeas claim if a state court
decision was contrary to or an unreasonable application
of clearly established precedent—not simply because
the Ninth Circuit thought the state courts should have
ruled differently.
The Ninth Circuit’s ruling in this case suffers from
some of the same flaws that led to this Court’s
summary reversal in Jackson. The rule the trial court
invoked in this case—Nev. Rev. Stat. 48.035, which,
like Fed. R. of Evid. 403, allows trial courts to exclude
evidence if its probative value is substantially
outweighed by the danger of unfair prejudice or
confusing the jury—is undoubtedly constitutionally
permissible. Evidence of Rose’s acquittal on related
charges at a different trial, and allegations that he may
or may not have molested at least six other young girls

2
who were not named as victims, would create a danger
of confusing the issues and misleading the jury, while
simultaneously embarrassing and harassing those
young girls. But like in Jackson, the Ninth Circuit held
that the Nevada Supreme Court’s decision upholding
the trial court’s ruling was an unreasonable application
of this Court’s precedent simply because the Ninth
Circuit thought the trial court could have issued a
better ruling. App. 6-7.
The Ninth Circuit’s decision in this case stands in
direct contrast to this Court’s analysis in Jackson.
Here, the rule the trial court relied on to exclude
evidence of uncharged accusations and prior acquittals
served a rational purpose, was reasonably invoked
under the circumstances, and was applied equally to
the State and the defense. Accordingly, the trial court
was well within its discretion to focus the presentation
of evidence on the conduct charged in this case. And
the Nevada Supreme Court’s conclusion that the trial
court’s ruling did not violate Rose’s right to present a
defense is neither contrary to, nor an unreasonable
application of, any clearly established precedent. This
case merits review or summary reversal by this Court.

3
OPINIONS BELOW
The Ninth Circuit’s opinion is unreported (App. 1-7),
as is its order denying rehearing (App. 54). The order
and judgment of the U.S. District Court for the District
of Nevada denying Rose’s petition for a writ of habeas
corpus is unreported. App. 8-51. The Nevada Supreme
Court’s decision affirming Rose’s judgment of
conviction is reported at Rose v. State, 163 P.3d 408
(Nev. 2007).
JURISDICTION
The Ninth Circuit entered its judgment affirming in
part, reversing in part, and remanding on September
24, 2019 (App. 1-7), and denied the petition for
rehearing and rehearing en banc on November 26, 2019
(App. 54). On February 20, 2020, this Court granted an
extension of time to file the petition for a writ of
certiorari until March 25, 2020. On March 19, 2020,
this Court issued an order further extending the time
for filing a petition to April 24, 2020. This Court has
jurisdiction under 28 U.S.C.§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS
Section 1 of the Fourteenth Amendment of the U.S.
Constitution provides that: “No State shall … deprive
any person of life, liberty, or property, without due
process of law.”
Section 2254 of Title 28 provides, in part, that:
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the

4
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim –
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as
determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.

5
STATEMENT OF THE CASE
In November 1999, Rose moved to Las Vegas with
his wife and children, including his son and his sixyear-old daughter, J.R. Rose v. State, 163 P.3d 408, 412
(Nev. 2007). When Rose’s son befriended a classmate by
the name of J.J., J.R. also became friends with J.J.’s
sisters, seven-year-old C.C. and five-year-old A.C. Id.
Over the next few years, C.C. and A.C. spent the
night at the Roses’ house almost every weekend. Id.
Two other girls, D.A. and Z.V., also spent the night at
the Roses’ house on occasion. Id.
In July 2002, the four girls accused Rose of
molesting them. Id. Specifically, C.C., A.C., D.A., and
Z.V. told D.A.’s mother that Rose had touched their
genital areas with his fingers and tongue. Id. When
interviewed about C.C.’s allegations, Rose claimed he
merely applied powder to her genital area on one
occasion (and may have touched her vagina), and on
another occasion he woke up to C.C. rubbing her vagina
against his hand. Id. at 413.
The State charged Rose with numerous counts of
sexual assault and lewdness involving A.C., C.C., D.A.,
and Z.V. Id. at 412. After a trial, the jury acquitted him
of the counts involving D.A. and Z.V., but deadlocked
on the charges involving A.C. and C.C. Id. As a result,
the trial court granted a mistrial on the counts
involving A.C. and C.C. EOR 1078.1

1

The Excerpts of Record (“EOR”) from the Court of Appeals can be
found at Rose v. Baker, No. 17-15009 (9th Cir.) (DktEntry 5
through 5-16).

6
Rose then proceeded to trial on the charges relating
to A.C. and C.C. Right before that trial, Rose indicated
that he intended to present evidence to the second jury
that the first jury acquitted him on the charges relating
to D.A. and Z.V. EOR 1565. Rose argued the prior
acquittals were relevant because the fact that a jury
acquitted him on the charges regarding D.A and Z.V.
made it “more probable than not” that he did not
molest A.C. and C.C.2 Id. at 1577. And he argued that
the evidence was vital to his defense that D.A., Z.V.,
A.C., and C.C. all “got together” and “created this story,
and the story evolved.” Id. at 1565.
The State responded that to the extent Rose
intended to suggest that D.A. and Z.V. had falsely
accused him, he had not complied with the
requirements of Miller v. State, 779 P.2d 87, 88
(Nev. 1989) (holding that the defense may present
extrinsic evidence that a sexual assault victim made
prior false allegations if the defense files written notice
and the trial court holds a hearing). EOR 1564. The
State also pointed out that Rose could still crossexamine A.C. and C.C. on whether they made-up their
story after talking to the other girls without getting
into the identities of the other victims or any prior
acquittals. Id. at 1569-70, 79-80. Finally, the State
argued that if Rose “opened the door” to other
allegations, the State would “love to walk through” the
same door by questioning Rose’s daughter on whether

2

Rose also argued that because the State intended to call D.A. as
a witness, he had a right to expose her bias. The trial court agreed
and held that Rose could ask D.A. about her prior allegations and
the acquittals if the State called her to testify. EOR 1568, 72.

7
she was molested by Rose, as well as getting into
apparent accusations of “other individuals.” EOR 157071, 74.
The trial court recognized that the evidence Rose
sought to admit had “marginal relevance,” but held
that its “probative value [was] substantially
outweighed by the danger of unfair prejudice, confusion
of the issues, or misleading the jury” under Nev. Rev.
Stat. 48.035. EOR 1582. The trial court, therefore, held
that “neither the State nor the defense is going to be
able to bring in any evidence of any prior trial, any
acquittal, any other victims.” Id.
At the conclusion of the trial, the jury acquitted
Rose of all counts involving A.C. EOR 0055. But the
jury found him guilty on all counts involving C.C. Id.
Rose appealed the trial court’s exclusion of the
evidence of other accusations and prior acquittals.
Rose, 163 P.3d at 413. The Nevada Supreme Court
upheld the ruling. Id. at 416 n.18. In particular, the
court acknowledged the relevance of the evidence, but
determined that the trial court did not abuse its
discretion in excluding it under Nev. Rev. Stat.
48.035(3) because of a danger of misleading or
confusing the jury. Id.
Rose challenged the Nevada Supreme Court’s
decision in his federal habeas petition. EOR 0078-84.
The district court denied relief and declined to grant a
certificate of appealability (hereinafter “COA”) on
Rose’s challenge to the evidentiary ruling, but granted
a COA on another issue. App. 51.

8
On appeal, Rose presented the evidentiary issue as
an uncertified claim. Dkt. 4. After post-argument
briefing, the Ninth Circuit expanded the certificate of
appealability and reversed the district court’s denial of
Rose’s habeas petition, concluding that the Nevada
Supreme Court unreasonably denied Rose’s claim that
the trial court violated his right to present a defense by
excluding the evidence of uncharged allegations and
prior acquittals. App. 7. Although it agreed with the
Nevada courts about the potential for juror confusion,
the Ninth Circuit suggested the trial court’s
evidentiary ruling improperly curtailed Rose’s ability
to cross-examine A.C. and C.C., while it could have
mitigated concerns about juror confusion with a
“narrower ruling.” App. 6-7. But the Ninth Circuit did
not explain what that “narrower ruling” should have
been or why the trial court’s “overly broad” ruling was
objectively unreasonable in comparison to its own
undefined “narrower ruling.” App. 7.
Respondents filed a petition seeking both panel and
en banc rehearing. The Ninth Circuit denied the
petition. App. 55.

9
REASONS FOR GRANTING THE PETITION
I. The Ninth Circuit’s Conclusion that the Trial
Court Violated Rose’s Right to Present a
Defense Directly Conflicts with this Court’s
Decision in Jackson.
The trial court precluded the State and the defense
from presenting confusing, prejudicial evidence based
on a reasonable state evidentiary rule. The Nevada
Supreme Court upheld the trial court’s ruling, but on
federal habeas review, the Ninth Circuit held that the
trial court’s ruling violated Rose’s right to present a
defense.
If all of this sounds familiar, it should, because
these facts are strikingly similar to the circumstances
this Court addressed in Jackson, where this Court
unanimously reversed the Ninth Circuit for committing
similar errors less than ten years ago.
A. In Jackson, this Court Acknowledged That
its Precedents Grant the States Broad
Discretion in Establishing Evidentiary
Rules to Avoid Confusing and Misleading
Juries.
In Jackson, the defendant claimed that the trial
court violated his right to present a defense by
precluding him from impeaching the victim with police
reports and testimony of other witnesses showing that
the victim had previously made unfounded allegations
of abuse against him. Jackson, 569 U.S. at 507.
Consistent with Nev. Rev. Stat. 50.085, which excludes
extrinsic evidence offered to attack a witness’s
credibility, the trial court allowed Jackson to cross-

10
examine the victim about the prior allegations. Id. But
the court precluded Jackson from introducing police
reports or testimony from other witnesses to impeach
her by showing that law enforcement had been
skeptical of her prior reports. Id.
Jackson challenged the trial court’s ruling on
appeal, and the Nevada Supreme Court affirmed.
Jackson, 569 U.S. at 508. Jackson then raised the issue
in his federal habeas petition, asserting a violation of
his right to present a defense. Id. After the district
court denied relief, the Ninth Circuit reversed,
concluding that the trial court’s ruling violated
Jackson’s right to present a defense. Id.
This Court reversed the Ninth Circuit’s decision.
This Court recognized that a defendant possesses “‘a
meaningful opportunity to present a complete defense.’”
Jackson, 569 U.S. at 509 (quoting Crane v. Kentucky,
476 U.S. 683, 690 (1986)). However, this Court
reiterated that states possess “‘broad latitude under
the Constitution to establish rules excluding evidence
from criminal trials.’” Id. (quoting Holmes v. South
Carolina, 547 U.S. 319, 324 (2006)).
This Court went on to acknowledge that it has only
found that the exclusion of evidence under state law
violated a defendant’s right to present a defense in very
limited circumstances: (1) where the rule “did not
rationally serve any discernable purpose,” (2) where
the rule was arbitrary, (3) where the “State did not
even attempt to explain the reason for its rule,” or
(4) where the “rule could not be rationally defended.”
569 U.S. at 509 (citing cases). But the Court recognized
that extrinsic evidence can “confuse the jury, unfairly

11
embarrass the victim, surprise the prosecution, and
unduly prolong the trial,” and that “[n]o decision of this
Court clearly establishes that the exclusion of such
evidence for such reasons in a particular case violates
the Constitution.” Id. at 511. In other words, this Court
concluded that the evidentiary rule and its laudable
goals did not fit within any of the circumstances where
this Court had previously found that the exclusion of
evidence under state law violated a defendant’s federal
constitutional right to present a defense. As a result,
Jackson’s claim did not survive AEPDA’s deferential
standard of review.
B. This Case Falls in Line with Jackson,
Requiring a Denial of Relief under AEDPA.
Like the defendant in Jackson, Rose wanted to
present extrinsic evidence to undermine A.C. and C.C.’s
credibility. Specifically, he wished to present testimony
from D.A. and Z.V. to impeach A.C. and C.C. on
whether the girls had discussed the abuse together.
EOR 1552-58. He also wanted to present evidence
showing that the first jury acquitted him of the charges
relating to D.A. and Z.V. Id. at 1554. And he wanted to
present testimony from C.R., K.T., and R.S. to show
that A.C. falsely accused him of abusing those three
girls. Id. at 2087.
In a subsequently filed offer of proof, Rose further
indicated that he wanted to present expert testimony
on whether A.C., C.C., D.A., and Z.V. made-up their
allegations together. Id. at 1552-58.
The trial court recognized the confusion that would
result by allowing Rose to present evidence that a

12
different jury acquitted him on charges relating to D.A.
and Z.V., and testimony from C.R., K.T., and R.S. that
he never touched them—even though their alleged
abuse did not form the basis of the charges at trial.
EOR 1582. And the trial court recognized the enormous
potential for prejudice, particularly given the State’s
representation that it would have responded by trying
to prove that Rose actually did abuse all of those girls,
and other girls too, including his own daughter. Id. All
of this would have resulted in a series of mini-trials,
distracting jurors from the charges at issue and
humiliating numerous young girls by forcing them to
discuss the most intimate details of their lives, with
one side or the other accusing them of lying.
The trial court’s ruling excluding this evidence is
consistent with principles discussed in Jackson. As this
Court explained there, states may reasonably exclude
evidence to avoid unnecessary delay, confusion of the
issues, or harassment of witnesses. 569 U.S. at 511.
And as this Court ultimately recognized, none of its
precedents hold that a trial court violates a defendant’s
right to present a defense when it excludes evidence
based on these concerns. Id. at 510-11. Thus, just as in
Jackson, the Nevada Supreme Court’s decision
upholding the trial court’s evidentiary ruling was
neither contrary to, nor an unreasonable application of,
clearly established federal law.
Notably, in this case, the Ninth Circuit agreed with
the Nevada Supreme Court that informing the jury of
Rose’s prior acquittals risked confusing the jury.
App. 6. However, it believed that the trial court could
have mitigated that concern with a “narrower ruling.”

13
Id. This statement sounds of ordinary error correction
and does not address the question AEDPA requires:
whether the Nevada Supreme Court’s decision was “so
erroneous that ‘there is no possibility fairminded
jurists could disagree that the state court’s decision
conflicts with this Court’s precedents.’” Jackson, 569
U.S. at 508-09 (quoting Harrington v. Richter, 562 U.S.
86, 102 (2011)).
That the trial court could have issued a narrower
ruling does not render the Nevada Supreme Court’s
affirmance of the trial court’s unreasonable,
particularly when the trial court’s decision was
markedly similar to the state-court ruling this Court
upheld in Jackson. But instead of asking whether
fairminded jurists could disagree on whether the
Constitution demanded a narrower ruling, as AEDPA
requires, the Ninth Circuit improperly analyzed the
underlying constitutional claim without explaining why
the state court’s decision was not only incorrect but
objectively unreasonable. Richter, 562 U.S. at 101-02
(reversing because the Court of Appeals did a de novo
analysis of the underlying constitutional claim without
explaining why the state court’s decision was
objectively unreasonable).
The Ninth Circuit’s failure to adhere to AEDPA is
doubly harmful here. With the wide latitude given to
state courts in addressing evidentiary questions, the
Ninth Circuit should have applied a doubly-deferential
standard to the Nevada Supreme Court’s decision. See
Yarborough v. Alvarado, 541 U.S. 652, 664 (2004).
Nevertheless, despite agreeing with the Nevada courts
about the potential for juror confusion, the Ninth

14
Circuit gave the Nevada courts no deference at all.
App. 6-7. It second-guessed the state courts by
suggesting the trial court could have mitigated its
concerns with an undefined “narrower ruling.” App. 67.
That the trial court could have issued a narrower
ruling is not the same thing as the trial court’s ruling
being unreasonable. Richter, 562 U.S. at 101
(discussing the “necessary premise” of AEDPA that
distinguishes unreasonable applications of federal law
from incorrect applications of federal law). Despite this
Court’s repeated recognition that AEDPA requires
federal courts to give state courts the benefit of the
doubt, the Ninth Circuit’s decision does nothing more
than improperly substitute a federal court’s judgment
for a state court’s judgment on how to deal with the
potential that evidence may confuse the jury. See
Renico v. Lett, 559 U.S. 766, 773 (2010). Just as in
Richter, “it is not apparent how the Court of Appeals’
analysis would have been any different without
AEDPA.” 562 U.S. at 101.
C. The Ninth Circuit’s Attempt to Distinguish
Jackson is Unavailing
The Ninth Circuit tried to distinguish this case from
Jackson by framing the trial court’s decision as one
that limited Rose from cross-examining A.C. and C.C.,
rather than one of precluding him from presenting
extrinsic evidence. App. 6-7. But the record shows that
Rose did not simply seek to cross-examine A.C. and
C.C. on their own allegations; he wanted to present
other witnesses to undermine A.C. and C.C.’s
credibility.

15
Like the defendant in Jackson, Rose wanted to
present various forms of extrinsic evidence to impeach
A.C. and C.C., including: (1) evidence that the first jury
acquitted him of the charges relating to D.A. and Z.V.,
in the form of a public record; (2) testimony from D.A.
and Z.V.; (3) testimony from C.R., K.T., and R.S.; and
(4) expert testimony on whether A.C., C.C., D.A., and
Z.V. likely influenced each other’s allegations. The
record makes abundantly clear that cross-examining
A.C. and C.C was not Rose’s main concern. Instead, he
wanted to muddy the waters by showing that A.C. and
C.C.’s allegations were linked to D.A. and Z.V.’s, and
because another jury rejected the State’s case relating
to D.A. and Z.V., this jury should do the same with
respect to A.C. and C.C.
The trial court excluded this evidence. But as in
Jackson, the trial court did not unreasonably limit
Rose’s cross-examination of A.C. and C.C. Rose was
free to cross-examine the girls on their own accusations
and whether they discussed those accusations with
other individuals before reporting them to an adult.
Nothing in the record suggests that the trial court
would have precluded Rose from exploring whether
outside sources might have influenced A.C. and C.C.’s
allegations, so long as he did so without mentioning
allegations of Rose abusing other girls or informing the
jury that he was acquitted on charges relating to D.A.
and Z.V. See EOR 1582. The Ninth Circuit’s attempt to
distinguish Jackson by recharacterizing the trial
court’s ruling as something it was not falls flat.
Furthermore, this Court has repeatedly recognized
that the right to cross-examination is not without limit.

16
Olden v. Kentucky, 488 U.S. 227, 232 (1988); Delware
v. Van Arsdall, 475 U.S. 673, 678-79 (1986). Trial
courts have “wide latitude” to limit cross-examination
for the same reasons they might exclude extrinsic
evidence, such as “concerns about, among other things,
harassment, prejudice, confusion of the issues, the
witness’ safety, or interrogation that is repetitive or
only marginally relevant.” Van Arsdall, 475 U.S. at
679.
Thus, just as with the exclusion of extrinsic
evidence, a trial court may reasonably limit a
defendant’s cross-examination to avoid the possibility
of juror confusion. But the Ninth Circuit never
addressed the reasonableness of the state court rulings;
it reached its own conclusions about the trial court’s
ability to issue an undefined “narrower ruling” and
improperly substituted those conclusions for the
conclusions reached by the Nevada courts.
***
The issue presented in this case is materially
indistinguishable from Jackson. The Ninth Circuit has
again failed to adhere to AEDPA’s deferential standard
of review by substituting its own judgment for that of
the Nevada courts, rather than evaluating the
reasonableness of the Nevada courts’ decisions. These
fundamental errors of law merit review or summary
reversal by this Court.
CONCLUSION
This Court should grant the petition.

17
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
CHARLES FINLAYSON
Senior Deputy Attorney General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
April 24, 2020

